C@QCKLE

2311 Douglas Street + E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B els contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-351

FEDERAL REPUBLIC OF GERMANY, a foreign state,
and STIFTUNG PREUSSICHER KULTURBESITZ,
Petitioners,
ve
ALAN PHILIPP, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR PETITIONERS,
JOINT APPENDIX and STATEMENT OF COST in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 12984 words, excluding
the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 4th day of September, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Renee | Keres. 0. Loe? Qndbawh Ohl

My Comm. Exp. September 8, 2023
Notary Public Affiant

 

40016
